AUDIT OF DIVISION OF SUPERVISION RELIANCE
          ON STATE EXAMINATIONS



             Audit Report No. 99-032
                 August 2, 1999




            OFFICE OF AUDITS

      OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                           Office of Audits
Washington, D.C. 20434                                                             Office of Inspector General




   DATE:                 August 2, 1999


   TO:                   James L. Sexton, Director
                         Division of Supervision




   FROM:                 Steven A. Switzer
                         Deputy Inspector General for Audits


   SUBJECT               Division of Supervision Reliance on State Examinations
                         (Audit Report No. 99-032)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General has completed
   an audit of the process used by the Division of Supervision (DOS) to rely on state examinations.
   Under the Federal Deposit Insurance (FDI) Act, the FDIC may rely on state examinations to
   meet examination frequency requirements, if it determines that the state examination is
   acceptable and meets the intent of the FDI Act.

   On November 19, 1998, the OIG issued an audit report entitled Audit of DOS Coordination of
   Examinations with State Banking Authorities in the Kansas City Region. That report identified
   some areas of concern regarding reliance on state examination reports. In addition, while
   discussing that report at the December 16, 1998 Audit Committee meeting, some concerns were
   expressed by FDIC Board members over outdated working agreements in the Kansas City
   region. The purpose of this audit was to review DOS's process for relying on state examinations,
   including a review of working agreements, from a national perspective.

   BACKGROUND

   On December 19, 1991, the Federal Deposit Insurance Corporation Improvement Act (FDICIA)
   was signed into law, which added subsection 10(d) to the FDI Act that required annual full-scope
   examinations of all insured depository institutions. FDICIA allowed federal regulators to extend
   the examination intervals of certain small institutions to 18 months if the following criteria were
met: the institution had total assets of less than $100 million; the institution was well capitalized
and well managed, with a composite rating1 of “1”; and the institution had not undergone a
change of control in the last 12 months. These requirements became effective in December
1992, with a 1-year transition period through December 1993. FDICIA permitted examinations
to be alternated with the appropriate state supervisory authority, provided that the federal
banking agency determined that the state examination carries out the purpose of a full-scope, on-
site examination.

Since FDICIA was enacted, examination frequency requirements have changed pertaining to
banks with assets of less than $250 million. In 1994, the Riegle Community Development and
Regulatory Improvement (CDRI) Act amended section 10(d) of the FDI Act to increase the asset
level to $250 million for institutions with a composite rating of “1” that could be examined on an
18-month basis. The CDRI Act also allowed an examination cycle of up to 18 months for banks
with a composite rating of “2” and $100 million or less in total assets. To qualify for an 18-
month cycle, these institutions had to be well managed and well capitalized, not have undergone
a change of control, and not be subject to any formal enforcement proceeding or order. This
change became effective during September 1994.

The CDRI Act also provided that, at any time after a 2-year period beginning on the date of
enactment, bank regulatory agencies could increase the asset limit to $175 million for those“2”-
rated institutions eligible for the 18-month examination cycle. Section 2221 of the Economic
Growth and Regulatory Paperwork Reduction Act (EGRPRA), which was passed in September
1996, increased the asset total to $250 million for “2”-rated institutions that were eligible for
the18-month examination cycle. In addition to extending examination frequency requirements,
the CDRI Act also required the Federal Financial Institutions Examination Council to adopt
guidelines for relying on state examinations (see appendix I).


The FDIC is the primary federal regulator for approximately 5,900 banks throughout the 50
states and U.S. territories. The FDIC coordinates examinations with all state regulatory
agencies, usually conducting independent alternating examinations with most state banking
departments. For those states with smaller banking departments, the FDIC typically performs
joint examinations, where one examination report is produced and signed by both the FDIC and
the state banking department.




1
  At the end of a safety and soundness examination, each financial institution is assigned a composite rating based on an
evaluation and rating of six essential components of an institution's financial condition and operations. These component
factors, known as "CAMELS," address capital adequacy, asset quality, management, earnings, liquidity, and sensitivity
to market risk. Composite and component ratings are assigned based on a 1 to 5 numerical scale. A “1” indicates the
highest rating, strongest performance and risk management practices, and least degree of supervisory concern, while a
“5” indicates the lowest rating, weakest performance, inadequate risk management practices, and therefore, the highest
degree of supervisory concern.



                                                           2
To improve bank supervision and enhance cooperation between the FDIC and state banking
departments, the FDIC has entered into working agreements with most of the 50 state banking
departments.2 The majority of these agreements resulted from a joint resolution entered into by
the Conference of State Bank Supervisors (CSBS) and the FDIC on April 12, 1992. The purpose
of the resolution was to develop an examination program that achieves the goals of improving
supervisory efficiencies while reducing regulatory burdens on the banking industry. The joint
resolution encouraged the negotiation and formation of working agreements with the state
banking departments. The working agreements identify, among other things, the scheduling and
frequency of examinations.

As of January 1, 1999, 42 states and Puerto Rico have entered into written working agreements
with their respective FDIC regional offices, stipulating the circumstances under which bank
examinations will be conducted. Four states have informal unwritten working agreements with
the Atlanta regional office that provide the framework under which the FDIC and each of these
states conduct the required examinations. Four states, four U.S. territories, and the District of
Columbia have no working agreements with the FDIC, although the District of Columbia has no
FDIC-supervised banks.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to assess the process used by DOS for relying on state
examinations. To accomplish this objective, we: (1) reviewed Bank Information Tracking
System (BITS) data for over 3,500 state examination reports with examination dates from
January 1, 1997 through September 30, 1998, (2) interviewed various regional office
management officials to discuss the process used for accepting state examination reports, (3)
interviewed senior management officials from the Conference of State Bank Supervisors, (4)
reviewed all written working agreements that the FDIC has established with state banking
authorities, (5) reviewed DOS policies for relying on state examinations, and (6) performed
selected bank file reviews at the Chicago and Dallas regional offices. We relied on automated
data obtained from BITS to ascertain the number and types of state examinations performed
during the audit period. Based on some comparisons of the data with source documents, we
determined that the data was reliable.

Fieldwork was performed in Washington, D.C., and at the Atlanta, Dallas, and Chicago regional
offices of DOS. The audit was conducted in accordance with generally accepted government
auditing standards for performance audits. We conducted the audit from October 1998 through
June 1999.




2
 In addition to the 50 state banking departments, FDIC also examines a small number of banks in Puerto Rico, Guam,
American Samoa, the Federated States of Micronesia, and the Virgin Islands. At the time this report was prepared, there
were no FDIC-supervised banks in the District of Columbia.



                                                           3
RESULTS OF AUDIT

Based on our review of state examination data, we believe DOS has an adequate process for
relying on state examinations. Each state examination report is reviewed to ensure that all risks
to the deposit insurance funds have been identified and that appropriate corrective measures are
taken. In addition, cooperative working agreements entered into by the FDIC and state banking
departments appear to have improved supervisory efficiencies and reduced regulatory burdens on
the banking industry since FDIC alternates examinations with most state banking departments.
The FDIC coordinates closely with state banking departments through the use of the working
agreements. According to DOS regional management officials and officials at the CSBS, the
majority of these agreements work well. In addition, based on our review of selected files at the
Chicago and Dallas regional offices, we found that the regional offices are complying with DOS
policy regarding ratings changes.

We noted, however, that many of the working agreements between the FDIC and the state
banking departments have not been updated since they were originally signed, despite changes in
examination frequency requirements, and that there are some cases where no written agreement
exists between the FDIC and a state banking department. To maintain close supervisory
cooperation and to achieve optimal supervisory efficiency, we believe that the FDIC should
maintain current, written agreements with all state banking departments.

DOS Accepts Virtually All State Examination Reports

The FDIC routinely accepts nearly all independent, full-scope state examination reports to meet
examination frequency requirements. DOS regularly alternates examinations with 39 state
banking agencies representing over 90 percent of the banks regulated by the FDIC. For 11 states
and 1 territory, joint examinations are usually conducted where 1 examination report is produced
and signed by both the FDIC and the state banking authority. During the period of January 1,
1997 through September 30, 1998, we found only 2 instances out of approximately 3,500 state
examination reports processed where DOS did not accept an independent state examination
report.3 In both cases the reasons for non-acceptance were documented by the case manager in
the Summary Analysis of Examination Report comments.

Even though the FDIC routinely accepts nearly all independent, full-scope state examination
reports, each state examination report is reviewed to determine its acceptability. According to
the Case Managers Procedures Manual, case managers are required to determine if a state
examination is acceptable. Examination reports that are of sufficient scope and detail to support
the assigned rating are used to meet examination frequency requirements. Reports that lack
sufficient detail or fail to support the assigned rating are not used to extend examination
intervals.

3
  The two instances pertain to state examination reports that were alternating, independent, and full-scope exams. We
did find other instances where a state examination report was not accepted for purposes of meeting examination
frequency requirements because the exam was either (1) a limited scope exam, (2) a concurrent exam with the FDIC and
the FDIC's examination report was used instead, or (3) a successive exam performed by the state, and the FDI Act
precludes federal regulators from relying on successive state examinations.



                                                          4
In certain cases, DOS may accept a state examination report but disagree with the state rating. In
those cases, DOS will attempt to resolve the difference with the state authority and, if unable to
do so, will prepare a rating change memorandum. DOS policy also requires that the FDIC
notify the state banking authority and, in certain circumstances, the institution's board of
directors of the rating difference and the basis for the FDIC's position. Our review of rating
change memoranda for the period of January 1, 1997 through September 30, 1998 revealed only
5 instances out of approximately 3,500 state examination reports processed where a composite
rating was changed because of disagreement with a state examination. In each case, the regional
office complied with DOS policy for making rating changes.

An Attempt Should Be Made to Update or Establish Working Agreements

Of the 43 written agreements DOS has with state banking departments and Puerto Rico, 21 have
not been updated to reflect changes in examination frequency resulting from the enactment of the
CDRI Act in 1994 and EGRPRA in 1996 (see appendix II).4 Most of these agreements were
originally signed in 1992 and 1993, although two of the agreements, with Alabama and North
Carolina, were signed in 1980 and 1982, respectively, and have not been formally updated since
then. We believe that the goals of improving supervisory efficiencies, while reducing regulatory
burdens on the banking industry could be helped by updating older agreements and attempting to
obtain written agreements with all state banking departments.

Concerns over outdated working agreements were expressed at the December 16, 1998 Audit
Committee meeting. During that meeting, the OIG presented its report on DOS coordination of
examinations with state banking authorities in the Kansas City region. One of the report's
findings pertained to outdated working agreements and concerns were expressed by two FDIC
Board members over the need to have current working agreements.

We found that 22 state agreements were either updated since 1995 to reflect the changes in
examination frequency or represented first-time agreements and included the new examination
frequency requirements. The remaining 21 agreements do not contain the revised examination
frequency schedule and are shown with a "No" in column three of appendix II. Examination
frequency is not addressed, of course, in those eight states4 and four territories with which the
FDIC does not have a written agreement. These states and territories are identified in column
two of appendix II as "Informal" or "None" (no written agreement is necessary with the District
of Columbia since there are no state non-member banks there). According to DOS officials,
written agreements with the U.S. territories and Micronesia would not provide much value since
none of the territories have more than 2 banks or have any organized banking department, except
for Puerto Rico.



4
  Subsequent to issuance of the draft report, DOS officials provided us with updated and corrected information pertaining
to working agreements it has with state banking departments. As of June 30, 1999, there were 17 states and Puerto Rico
where agreements had not been updated and a total of 6 states without written agreements. Appendix II of the report has
been changed to reflect the updated and corrected information.



                                                           5
According to senior officials at the CSBS, state banking departments view the working
agreements as an important factor in coordinating examinations of state-chartered banks with the
FDIC and Federal Reserve. The CSBS officials believe that there has been an increase in
cooperation between state and federal regulators because of the agreements. The CSBS officials
indicated that it would be a good idea to get the agreements updated but also indicated that the
agreements should remain flexible to meet the needs of both the FDIC and the states.

Recommendations

We recommend that the Director, DOS:

(1) Request that the Regional Directors update the 21 working agreements with state agencies as
    needed to reflect current statutory examination requirements.

(2) Request that the Regional Directors of Atlanta, Boston, and San Francisco pursue written
    agreements with banking departments in the eight states that have no written agreement.


CORPORATION COMMENTS AND OIG EVALUATION

On July 22,1999, the Director, DOS, provided a written response to the draft report. The
response is presented in its entirety in appendix III to this report.

The Director concurred with the report's recommendations and stated that since receipt of the
draft report, 20 state agencies and the banking department of Puerto Rico have been contacted to
pursue updated agreements. Written agreements with Hawaii and Wyoming, were obtained after
our fieldwork cut-off date. The Director noted that DOS has updated agreements with the state
banking agencies of Delaware, Minnesota, and Montana. These updated agreements were
inadvertently omitted from the written agreements provided to us by DOS. Appendix II of the
report has been updated to reflect these changes.

The Director stated that working agreements have not been obtained for Vermont and Rhode
Island because there is not an alternating examination program with these states. Also, DOS
prefers to postpone updating the written agreement with Missouri until a permanent
commissioner is named to replace the "acting" commissioner.

The Corporation's response to the draft report provided the elements necessary for management
decisions on both recommendations. Therefore, no further response to the report is necessary.
Appendix IV presents management's proposed action on the recommendations.




                                               6
                                                                            APPENDIX I



               GUIDELINES FOR RELYING ON STATE EXAMINATIONS

Pursuant to the CDRI Act, the Federal Financial Institutions Examination Council (FFIEC)
adopted guidelines for relying on state examinations in 1995. These guidelines provide, in part,
that federal banking agencies will accept and rely on state reports of examination in all cases in
which it is determined that state examinations enable the federal banking agencies to effectively
carry out their supervisory responsibilities. According to the FFIEC guidelines, the following
criteria may be considered, in whole or in part, by a federal banking agency in determining the
acceptability of a state report of examination under section 10(d) of the FDI Act:

   •   Completeness of state examination report - the state examination report should contain
       sufficient information to permit a reviewer to make an independent determination on the
       overall condition of the institution as well as the component factors and composite
       CAMELS rating.

   •   Adequacy of documentation maintained routinely by state examiners to support
       observations made in examination reports.

   •   The ability over time for a state banking department to achieve examination objectives.
       Federal agencies should consider the adequacy of state budgeting, examiner staffing and
       training, and review procedures. Also, accreditation of a state banking department by the
       Conference of State Bank Supervisors (CSBS) should be considered.

   •   Adequacy of any informal or formal working arrangements with the state.

The written working agreements between FDIC and state banking authorities address the
scheduling and frequency of examinations, pre-examination procedures, examination types,
examination report processing, and enforcement actions. Although DOS does not typically
review state examiner workpapers, state examination reports are reviewed to make an
independent determination on the overall condition of the institution as well as each component
factor in the CAMELS rating.

Other factors considered by the FDIC in determining the acceptability of state examinations are
accreditation of a state banking department by CSBS and the fact that many states participate in
FDIC-sponsored training courses. The CSBS is the professional association of state banking
departments responsible for chartering, regulating, and supervising the nation's state-chartered
banks. A comprehensive state banking department performance Accreditation Program is
employed by CSBS to enhance the professionalism of these departments and their personnel, and
to reduce duplicative federal regulatory and supervisory activity over state-chartered banks. To




                                                 7
become accredited, state banking departments submit to a review of critical elements that assure
the ability of these departments to discharge their responsibilities through an investigation of
their administration and finances, personnel policies and practices, training programs,
examination policies and practices, supervisory procedures, and statutory powers. As a means of
monitoring a department’s compliance with CSBS performance standards, every accredited
banking department is subject to an annual review by outside consultants who are experienced
regulators. As of December 31, 1998, 42 states and Puerto Rico have CSBS-accredited banking
departments.




                                               8
                                                                                                             APPENDIX II

                            ANALYSIS OF FDIC/STATE WORKING AGREEMENTS

                                            Date          CDRI & EGRPRA               Date            Total Number
STATE                  REGION             Working            Changes                   Of               Of FDIC
                                         Agreement          Included In              CSBS              Regulated
                                           Signed           Agreement             Accreditation          Banks
Alabama                  ATLANTA          11-07-80              No                 12-23-96                109
Florida                                   01-11-93              No                 10-16-86                135
Georgia                                   Informal           Unknown               12-01-92                276
N. Carolina                               01-01-82              No                 10-01-97                 86
S. Carolina                               Informal           Unknown                 None                   51
Virginia                                  Informal           Unknown                 None                   23
W. Virginia                               Informal           Unknown               08-21-96                 43
Connecticut             BOSTON            06-02-92              No                 04-28-86                 56
Maine                                     06-10-93              No                 10-21-96                 25
Massachusetts                             10-21-92              No                 12-06-94                201
N. Hampshire                              08-26-92              No                   None                   25
Rhode Island                                None               None                  None                   7
Vermont                                     None               None                12-08-95                 13
Illinois                CHICAGO           01-05-93              No                 12-04-84                512
Indiana                                   12-12-96              Yes                03-14-88                114
Michigan                                  11-23-92              No                 04-28-86                100
Ohio                                      10-17-94              No                 10-24-89                 98
Wisconsin                                 08-23-98              Yes                08-08-88                241
Colorado                DALLAS            05-12-98              Yes                01-04-91                106
N. Mexico                                 01-22-96              Yes                05-03-96                 32
Oklahoma                                  05-07-98              Yes                03-23-94                149
Texas                                     02-20-96              Yes                10-27-93                377
Iowa                    KAN. CITY         02-08-93              No                 06-11-85                334
Kansas                                    03-30-95              Yes                05-26-95                259
Minnesota                                 06-26-97              Yes                11-28-90                342
Missouri                                  01-15-93              No                 04-03-87                293
Nebraska                                  02-09-93              No                 03-18-93                197
N. Dakota                                 01-29-93              No                 12-16-92                 93
S. Dakota                                 01-29-93              No                   None                   66
Arkansas                MEMPHIS           03-19-97              Yes                08-08-88                128
Kentucky                                  03-20-98              Yes                11-02-92                194
Louisiana                                 04-23-97              Yes                01-14-89                133
Mississippi                               02-21-97              Yes                06-06-96                 79
Tennessee                                 06-03-98              Yes                04-27-87                160
District of Columbia    NEW YORK            None               None                  None                 None
Delaware                                  02-05-99              Yes                12-23-96                 18
Maryland                                  10-14-92              No                 07-13-92                 49
New Jersey                                01-12-94              No                 10-24-86                 71
New York                                  07-01-96              Yes                10-15-85                109
Pennsylvania                              07-16-97              Yes                02-28-86                111
Puerto Rico                               03-23-93              No                 07-08-94                 11
Virgin Islands                              None               None                  None                   2
Alaska                  S. FRAN.          05-02-95              Yes                  None                   4
Arizona                                   07-07-95              Yes                07-05-96                 21
California                                12-12-97              Yes                04-06-90                200
Hawaii                                    04-07-99              Yes                03-30-90                 11
Idaho                                     04-17-95              Yes                01-08-90                 14
Montana                                   07-17-98              Yes                  None                   35
Nevada                                    06-27-95              Yes                  None                   17
Oregon                                    05-02-95              Yes                10-22-92                 28
Utah                                      04-17-95              Yes                10-27-94                 36
Washington                                05-16-95              Yes                09-17-90                 73
Wyoming                                   08-03-98              Yes                07-20-92                 11
American Samoa                              None               None                  None                   1
Guam                                        None               None                  None                   2
Micronesia                                  None               None                  None                   1

Source: Signed working agreements on file at DOS, CSBS-provided listing of accredited states, and FDIC institution directory
        webpage. Information as of December 31, 1998, except the working agreements which are as of June 30, 1999.




                                                              9
                                                                                              APPENDIX III
FDIC
Federal Deposit Insurance Corporation
      th
550 17 Street Washington, DC 20429                                  Division of Supervision



                                                                 July 22, 1999


MEMORANDUM TO:                       Steven A. Switzer
                                     Deputy Inspector General for Audits



FROM:                                James L. Sexton
                                     Director, DOS

SUBJECT:                             Response to Draft Report Entitled
                                     Division of Supervision Reliance on State Examinations

The Division of Supervision (DOS) appreciates the opportunity to respond formally to the
recommendations contained in the subject report. Overall, the report concluded that DOS has an
adequate process for relying on state examinations. However, the report also recommended that
DOS update 21 working agreements to reflect current statutory requirements and pursue written
agreements with the eight states that have no written agreements.

DOS views the working agreements as an important factor in coordinating examinations of
State-chartered banks with the individual State agencies. In response to the report findings, the
regions reviewed their files to ensure that the most current working agreements had been
provided. As noted in the table below, there were four state agreements identified that had been
updated in the interim and one agreement that was not provided in our earlier submission.

           STATE                       EFFECTIVE DATE
           Delaware                       02-05-99
           Hawaii                         04-07-99
           Minnesota                      06-26-97
           Montana                        07-17-98
           Wyoming                        08-03-98

DOS has written agreements with 27 State agencies that are current and reflect the changes in
examination frequency resulting from the enactment of the Riegle Community Development and
Regulatory Improvement Act and Section 2221 of the Economic Growth and Regulatory
Paperwork Reduction Act. Since the receipt of this report, 20 of the remaining 23 State agencies
have been contacted. Updated written agreements are in process with 11 of the State agencies;
five of the State agencies requested to continue operating under the outstanding agreement; and
four of the State agencies requested to continue operating under informal agreements. Please


                                                       10
refer to the attached Analysis of FDIC/State Working Agreements, for the status of the working
agreements with each State agency. The New York Regional Office has contacted the Banking
Department for the Commonwealth of Puerto Rico and an updated agreement will be obtained.
The updated agreements will be in place by December 31, 1999, and copies will be provided to
the Office of Inspector General as documentation that corrective action has been implemented.

Working agreements have not been obtained for Vermont and Rhode Island because there is not
an alternating examination program with these States. All examinations for the seven state
nonmember banks in Rhode Island are completed jointly with the state, and most examinations
of the 13 state nonmember banks in Vermont are completed jointly with the State. The Vermont
Department of Banking and Finance does complete three independent examinations annually to
maintain accreditation with the Conference of State Bank Supervisors. Neither state has
sufficient staff to participate in an alternate examination program. The Missouri Division of
Finance is currently supervised by an “acting” commissioner. DOS prefers to postpone updating
the written agreement until a permanent commissioner is named.

The governments of American Samoa, Guam, Micronesia, and the Virgin Islands rely on the
FDIC for examination reports. As stated on page 7 of the report, “written agreements would not
provide much value since none of the territories have more than two banks, or have an organized
banking department.”




cc:    Mr. Zamorski
       Mr. Schmidt
       Mr. Lane
       Mr. Snyder
       Mr. Walsh
       Ms. Zumbrun




                                              11
                     ANALYSIS OF FDIC/STATE WORKING AGREEMENTS
REGION/STATE     DATE OF AGREEMENT AS OF 12/31/98 DATE OF AGREEMENT AS OF 07/16/99   STATUS
     ATLANTA
Alabama                      11-07-80                          11-07-80                3
Florida                      01-11-93                          01-11-93                5
Georgia                      Informal                          Informal                4
North Carolina               01-01-82                          01-01-82                3
South Carolina               Informal                          Informal                4
Virginia                     Informal                          Informal                4
West Virginia                Informal                          Informal                4
      BOSTON
Connecticut                  06-02-92                          06-02-92                5
Maine                        06-10-93                          06-10-93                5
Massachusetts                10-21-92                          10-21-92                5
New Hampshire                08-26-92                          08-26-92                5
Rhode Island                  None                              None                   6
Vermont                       None                              None                   6
     CHICAGO
Illinois                     01-05-93                          01-05-93                5
Indiana                      12-12-96                          12-12-96                1
Michigan                     11-23-92                          11-23-92                5
Ohio                         10-17-94                          10-17-94                5
Wisconsin                    08-23-98                          08-23-98                1
       DALLAS
Colorado                     05-12-98                          05-12-98                1
New Mexico                   01-22-96                          01-22-96                1
Oklahoma                     05-07-98                          05-07-98                1
Texas                        02-20-96                          02-20-96                1
  KANSAS CITY
Iowa                         02-08-93                          02-08-93                3
Kansas                       03-30-95                          03-30-95                1
Minnesota                    02-01-93                          06-26-97                1
Missouri                     01-15-93                          01-15-93                7
Nebraska                     02-09-93                          02-09-93                5
North Dakota                 01-29-93                          01-29-93                3
South Dakota                 01-29-93                          01-29-93                3
     MEMPHIS
Arkansas                     03-19-97                          03-19-97                1
Kentucky                     03-20-98                          03-20-98                1
Louisiana                    04-23-97                          04-23-97                1
Mississippi                  02-21-97                          02-21-97                1
Tennessee                    06-03-98                          06-03-98                1
    NEW YORK
Delaware                     01-22-93                          02-05-99                2
Maryland                     10-14-92                          10-14-92                5
New Jersey                   01-12-94                          01-12-94                5
New York                     07-01-96                          07-01-96                1
Pennsylvania                 07-16-97                          07-16-97                1
 SANFRANCISCO
Alaska                       05-02-95                          05-02-95                1
Arizona                      07-07-95                          07-07-95                1
California                   12-12-97                          12-12-97                1
Hawaii                        None                             04-07-99                2
Idaho                        04-17-95                          04-17-95                1
Montana                      08-18-92                          07-17-98                1
Nevada                       06-27-95                          06-27-95                1
Oregon                       05-02-95                          05-02-95                1
Utah                         04-17-95                          04-17-95                1
Washington                   05-16-95                          05-16-95                1
Wyoming                       None                             08-03-98                1


                                           12
STATUS KEY
1     No action required.                                                                                   (25)
2     State banking supervisor contacted and current agreement obtained/updated.                             (2)
3     State banking supervisor contacted and requested to continue operating under outstanding agreement.    (5)
4     State banking supervisor contacted and requested to continue operating under informal agreement.       (4)
5     State banking supervisor contacted and update is in process.                                          (11)
6     Independent state reports are not accepted by the regional office.                                     (2)
7     Currently supervised by an “Acting” state bank supervisor. Regional office prefers to postpone
      updating agreement until a permanent commissioner is named.                                            (1)




                                                              13
                                                                                                                                                                          APPENDIX IV

                                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

    §    the specific corrective actions already taken, if applicable;
    §    corrective actions to be taken together with the expected completion dates for their implementation; and
    §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.
This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management decisions is based
on management’s written response to our report.

                                                                                                              Documentation That                              Management
  Rec.                                                                                Expected                   Will Confirm               Monetary          Decision: Yes
 Number              Corrective Action: Taken or Planned/Status                    Completion Date               Final Action               Benefits             or No
               The Corporation agreed with the recommendation. DOS
               Regional Directors have attempted to obtain updated                                                DOS working                 Not
     1                                                                            December 31, 1999                                        Quantifiable             Yes
               agreements in all cases except Missouri, which will be                                         agreements with states
               pursued when a permanent commissioner is named.
               The Corporation agreed with the recommendation. DOS
               Regional Directors have attempted to get written
                                                                                                                  DOS working                 Not                   Yes
     2         agreements with those states currently without one                 December 31, 1999
                                                                                                              agreements with states       Quantifiable
               except Vermont and Rhode Island, because there is not
               an alternating exam program with these two states.




                                                                                            14
